                                                        IG-01-017




AUDIT
                            SPACE SHUTTLE PROGRAM MANAGEMENT
REPORT                              SAFETY OBSERVATIONS

                                       March 23, 2001




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232 or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

      Assistant Inspector General for Auditing
      Code W
      NASA Headquarters
      Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800) 424-
9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.


Acronyms

COTR            Contracting Officer’s Technical Representative
FY              Fiscal Year
GAO             General Accounting Office
HEDS            Human Exploration and Development of Space
IRIS            Incident Reporting Information System
NPG             NASA Procedures and Guidelines
NSTS            NASA Space Transportation System
OIG             Office of Inspector General
S&MA            Safety and Mission Assurance
SFOC            Space Flight Operations Contract
SR&QA           Safety, Reliability, and Quality Assurance
SSP             Space Shuttle Program
TMR             Technical Management Representative
USA             United Space Alliance
W                                                                                             March 23, 2001


TO:                A/Administrator

FROM:              W/Inspector General

SUBJECT:           INFORMATION: Space Shuttle Program Management Safety Observations
                   Report Number IG-01-017


The NASA Office of Inspector General (OIG) is performing an audit of the United Space
Alliance’s (USA’s) safety procedures under NASA’s Space Flight Operations Contract
(SFOC).1 As part of the audit, we reviewed the oversight of USA's safety procedures for the
Space Shuttle Program at the Lyndon B. Johnson Space Center (Johnson). We found that the
Johnson Safety, Reliability, and Quality Assurance Office (Johnson Safety Office) is not
providing the required support to the Manager, Space Shuttle Program Safety and Mission
Assurance (Space Shuttle Program Safety Manager), for oversight of USA’s safety activities.
We also found that NASA’s contractor surveillance plans do not address all SFOC
requirements for safety; USA did not update its Management Plan to reflect organizational and
personnel changes to the SFOC, including changes in key safety personnel from NASA and
USA; and USA’s reporting to NASA of close calls 2 and mishaps needs improvement. As a
result, NASA does not have adequate management




1
  NASA awarded the SFOC to USA of Houston, Texas, on September 26, 1996. USA is a joint venture of The Boeing
Company and Lockheed-Martin to conduct the SFOC and is the prime contractor for NASA’s Space Shuttle Program.
USA performs work for SFOC under contract number NAS9-20000. The total contract cost plus fee is estimated at
$8.6 billion. The contract is a cost-plus-award-fee/incentive fee/performance fee type contract and has a period-of-
performance of October 1, 1996, through September 30, 2002. The contract includes two, 2-year option periods, which
potentially extend the period-of-performance through September 30, 2006.
2
  NASA Procedures and Guidelines (NPG) 8621.1, “NASA Procedures and Guidelines for Mishap Reporting,
Investigating, and Recordkeeping,” June 2, 2000, defines a close call as a situation or occurrence with no injury, no
damage or only minor damage (less than $1,000), but has the potential to cause any type mishap, or any injury, damage,
or negative mission impact. (A close call is not considered a mishap, but the mishap reporting, investigation, and
recordkeeping and recurrence control guidelines will be followed).
                                                                                                                      2

controls in place to ensure (1) effective oversight of USA's safety operations under the SFOC,
(2) better control over $13 million3 in annual Space Shuttle Program funds provided to the
Johnson Safety Office, and (3) that adequate corrective actions are taken on all safety mishaps
and close calls. We have addressed safety involving NASA contractors in two prior audit
reports.4 A synopsis of each report is in Appendix B of the attached report.

Background

The SFOC and the SFOC Contracting Officer impose many safety requirements on USA and
NASA. The NASA Space Transportation System (NSTS) 077005 requires that the Johnson
Safety office support the Space Shuttle Program Safety Manager. Also, the Contracting Officer
requires each Technical Management Representative (TMR)6 to develop a surveillance plan that
includes providing input to the Space Shuttle Program Safety Manager regarding safety issues in
each of the TMR’s delegated areas of responsibility. In addition, the SFOC requires USA to
establish and maintain a Management Plan that includes current procedures for management of
USA’s safety program under SFOC. Finally, the Agency requires that all NASA reportable
mishaps and close calls (including those incurred by contractors) be recorded and submitted
electronically to the Agencywide reporting system.7 Prompt management attention to these
areas is particularly important to the continued success of the Space Shuttle Program as it
prepares to increase the number of flights in the next year.8




3
  Johnson Space Shuttle Program management provided us this funding amount. The Johnson Space Shuttle Program
Business Management Office could not provide us documentation to support the amount. This funding flows down to
the Johnson Safety Office, Shuttle Division from the various Space Shuttle Program components (Orbiter, External
Tank, Space Shuttle Main Engine). From a total of $16 million, $3 million was for the Johnson Institutional Safety
Office. The Johnson Safety Space Shuttle Division consists of 22 civil servants and 120 contractor support staff.
4
  The two reports that address safety issues with NASA contractors are Report No. IG-00-035, “Contract Safety
Requirements at Kennedy Space Center and Marshall Space Flight Center,” June 5, 2000, and IG-00-28, “Safety
Concerns with Kennedy Space Center’s Payload Ground Operations,” March 30, 2000.
5
  SFOC Section J-1-A, paragraph 1 imposes the NSTS 07700 series of documents, “Space Shuttle Program
Requirements and Description.” The latest revision of NSTS 07700, Revision G, was dated December 17, 1997.
6
  The Contracting Officer delegates management of each major component of the Space Shuttle Program to the TMR's.
The major components are (1) Space Shuttle Program Systems Integration, (2) Safety and Mission Assurance, (3) Space
Shuttle Program Management Integration, (4) Avionics and Software, (5) Flight Crew Operations, (6) Mission
Operations, (7) Space Shuttle Vehicle Engineering, (8) Space Station Office, (9) Solid Rocket Booster Project, (10)
Logistic Operations, and (11) Shuttle Process Integration.
7
  The Incident Reporting Information System (IRIS) is NASA’s Agencywide automated system for tracking mishap
and injury information. The IRIS enables the real-time reporting of mishaps and injuries and facilitates detailed mishap
investigation and follow-up documentation. The IRIS provides a valuable tool for reporting mishap information to
NASA management and outside sources and is the Agency's primary system for accumulating data on employee injuries
and lost time rates.
8
  From October 2000 through September 2001, NASA has planned nine Space Shuttle flights to assemble the
International Space Station. From 1996 through 2000, NASA averaged five flights per year.
                                                                                                  3

Management Response and OIG Evaluation

While management did not agree with all of the findings, Johnson concurred with the
recommendations and has planned or taken responsive corrective actions. Johnson will
establish procedures to clarify the responsibilities of the Johnson Safety Office to ensure that it
provides the necessary support to the Space Shuttle Program Safety Manager. Johnson also
plans to update the various SFOC surveillance plans to adequately address safety, revise the
SFOC Management Plan to reflect current operations, and ensure that the Agency’s automated
mishap tracking system accurately reflects current USA mishap and close call information.

Details on the status of the recommendations are in the report’s recommendation section.




[original signed by]
Roberta L. Gross

Enclosure
 Final Report on Audit of Space Shuttle Program Management Safety Observations
                FINAL REPORT
AUDIT OF SPACE SHUTTLE PROGRAM MANAGEMENT
            SAFETY OBSERVATIONS
      W                                                                             March 23, 2001


      TO:              M/Associate Administrator for Space Flight
                       AA/Acting Director, Lyndon B. Johnson Space Center

      FROM:            W/Assistant Inspector General for Auditing

      SUBJECT:         Final Report on Audit of Space Shuttle Program Management Safety
                       Observations
                       Assignment Number A0004100
                       Report Number IG-01-017


      The subject final report is provided for your information and use. Please refer to the Executive
      Summary for the overall audit results. Our evaluation of your response is incorporated into the
      body of the report. The corrective action completed on recommendation 3 was responsive,
      and the recommendation is considered closed for reporting purposes. The corrective actions
      planned for recommendations 1 and 2, and 4 through 10 were responsive. Please notify us
      when action has been completed on those recommendations, including the extent of testing
      performed to ensure corrective actions are effective.

      If you have questions concerning the report, please contact Mr. Kevin J. Carson, Program
      Director, Safety and Technology Audits, at (301) 286-0498, or Mr. Karl Allen, Audit Program
      Manager, at (202) 358-2595. We appreciate the courtesies extended to the audit staff. The
      final report distribution is in Appendix G.




(for) Russell A. Rau

      Enclosure
                                                             2

cc:
AA/Director, John F. Kennedy Space Center
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
Q/Associate Administrator for Safety and Mission Assurance
Contents

Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Matrixed Support for Safety Oversight, 2

     Finding B. NASA Surveillance of USA, 7

     Finding C. USA Management Plan, 11

     Finding D. USA Mishap Reporting, 14

Appendix A - Objectives, Scope, and Methodology, 19

Appendix B – Summary of Prior Audit Coverage, 21

Appendix C – Agency Safety Requirements Referenced by the SFOC, 22

Appendix D - Johnson Space Shuttle Program Safety Responsibilities, 23

Appendix E – Key Space Shuttle Program Safety Responsibilities
             Delegated to the Johnson Safety Office, 28

Appendix F –Management’s Response, 29

Appendix G – Report Distribution, 34
                        NASA Office of Inspector General

IG-01-017                                                                   March 23, 2001
 A0004100

                      Space Shuttle Program Management
                              Safety Observations

                                  Executive Summary

Background. For this portion of the audit, we reviewed the oversight of USA's safety
procedures for the Space Shuttle Program at Johnson. During our audit, we identified several
weaknesses in the overall management control of Space Shuttle Program safety that need
management’s attention.

Objectives. Our overall audit objective is to evaluate USA safety procedures for NASA's
SFOC. The specific objective related to this report was to determine whether NASA is
performing effective oversight of USA’s safety program.

Appendix A contains further details on the audit objectives, scope, and methodology.
Subsequent reports will address the audit's remaining objectives as detailed in Appendix A.

Results of Audit. Since the SFOC was awarded, NASA has flown a total of 22 successful
Space Shuttle flights. Despite this success rate, NASA's oversight of USA’s safety operations
under the SFOC needs improvement. Specifically:

    •   The Johnson Safety Office is not providing the required support to the Space Shuttle
        Program Safety Manager, for oversight of USA’s safety activities. As a result, Space
        Shuttle Program Management did not have the necessary management controls in place
        to ensure (1) better control over $13 million in Space Shuttle Program funds provided
        to the Johnson Safety Office and (2) effective safety oversight of key components of the
        Space Shuttle Program which are part of USA’s work under SFOC (Finding A).

    •   NASA’s contractor surveillance plans do not address all SFOC requirements for safety
        thus hindering NASA’s monitoring of USA’s safety operations (Finding B).

    •   USA did not update its Management Plan commensurate with the changes to the
        SFOC, resulting in a less effective management tool for monitoring USA’s management
        and performance under the SFOC (Finding C).
   •   USA’s reporting to NASA of close calls and mishaps needs improvement. Until
       improvements are made, NASA’s system for reporting and tracking mishap information
       is not as effective as possible in tracking and monitoring mishaps and their corrective
       actions (Finding D).

Recommendations. NASA should ensure that the Space Shuttle Program Safety Manager
receives the necessary support from the Johnson Safety Office. In addition, NASA should
ensure that (1) surveillance plans address all contract requirements for safety, (2) USA’s SFOC
Management Plan is kept current, and (3) USA promptly and accurately reports all required
close call and mishap information to NASA’s reporting system.

Management’s Response. Management concurred with each recommendation and has
taken or planned corrective actions that we consider responsive. The complete text of the
response is in Appendix F.




                                               ii
Introduction

Under the SFOC, USA is responsible for the day-to-day operation and management of the
U.S. Space Shuttle fleet; thus USA's work affects the safety of NASA's astronauts, the Space
Shuttle orbiters, and other space hardware, personnel, and equipment. Johnson is responsible
for managing the SFOC and the Space Shuttle Program. The NASA SFOC management team
consists of the Contracting Officer, a Contracting Officer’s Technical Representative (COTR),
4 Assistant Contracting Officers, and 11 TMR's. The Johnson Space Shuttle Program
management team includes a Manager, Assistant Manager, and Manager for Safety and
Mission Assurance.

USA’s specific responsibilities under the SFOC include Space Shuttle modification, testing,
checkout, and launch and landing activities at the John F. Kennedy Space Center (Kennedy)
and flight operations at Johnson. Johnson is responsible for managing the SFOC and the Space
Shuttle Program. The Space Shuttle Program management team is integrated into the SFOC
management team in that the Assistant Manager is the SFOC COTR, and the Manager Safety
and Mission Assurance is the SFOC TMR for Safety and Mission Assurance (S&MA). The
SFOC Statement of Work, paragraph 1.3, specifies the safety and mission assurance
requirements for the contract. Appendix C of this report lists Agency safety and quality
requirements that have been incorporated, by reference, into the SFOC.
Findings and Recommendations

Finding A. Matrixed Support for Safety Oversight

The Johnson Safety Office did not provide the required support to the Space Shuttle Program
Safety Manager for oversight of USA’s safety activities. This occurred because Johnson did
not clearly define the roles, responsibilities, and lines of authority for the Space Shuttle Program
Safety Manager and the Johnson Safety Office regarding Space Shuttle Program safety. As a
result, Space Shuttle Program Management did not have the necessary management controls in
place to ensure (1) better control over $13 million in Space Shuttle Program funds provided to
the Johnson Safety Office and (2) effective safety oversight of key components9 of the Space
Shuttle Program which are part of USA’s work under the SFOC.

NASA Policy on Space Shuttle Program Safety Responsibilities

Johnson has several policies that address Space Shuttle Program safety. NSTS 07700,
Volume 1, paragraph 3.4.1.3, “Space Shuttle Program Requirements,” designates the Space
Shuttle Program Safety Manager as being responsible for “managing Space Shuttle S&MA
implementation and for oversight of all S&MA activities in support of the Space Shuttle
Program.” The key responsibility of the Space Shuttle Program Safety Manager is to:
                   Ensure establishment of contractor S&MA processes to assure that the Space
                   Shuttle and its related support systems are designed, constructed, qualified, and
                   operated satisfactorily to perform their intended purposes.


Johnson Procedures and Guidelines 1107.1A, “The Johnson Organization,” assigns safety
responsibility to the Johnson Safety Office by stating:

                   The SR&QA [Safety, Reliability, and Quality Assurance] Space Shuttle
                   Division ensures Shuttle flights are accomplished safely with high mission
                   assurance. The Division Chief represents SR&QA on the Space Shuttle
                   Program Manager’s staff. This representation includes all elements of SR&QA
                   throughout the Agency that support the Space Shuttle Program.


NSTS 07700, Volume 1, paragraph 3.4.2.14, "Safety, Reliability, and Quality Assurance,"
requires that the Johnson Safety office support the Space Shuttle Program Safety Manager.
This paragraph states:

                   This function performed by the Johnson SR&QA [Safety, Reliability, and
                   Quality Assurance] Office includes the matrixed support effort and resources
                   necessary to support the Manager, Space Shuttle Program S&MA and assure


9
 The Space Shuttle Program consists of several components; each component is managed by a separate TMR. The
components are Systems Integration, Management Integration, Avionics and Software, Flight Crew Operations,
Mission Operations, and Orbiter Vehicle Engineering (at Johnson); Solid Rocket Booster Project (at George C. Marshall
Space Flight Center); and Logistic Operations and Shuttle Process Integration (at John F. Kennedy Space Center).


                                                          2
                   the implementation of requirements applicable to the safety, reliability, and
                   quality assurance aspects of the Space Shuttle Program.

In a December 3, 1998, delegation letter, the SFOC Contracting Officer also directed the
Johnson Safety Office to provide the support required by NSTS 07700, Volume 1, paragraph
3.4.2.14.10 The delegation letter lists the support required from the Johnson Safety Office
including surveillance and evaluation of contractor and associated subcontractor activities
associated with safety and real-time insight into activities at selected subcontractors. The key
areas of support that the SFOC Contracting Officer delegated to the Johnson Safety Office are
listed in Appendix E of this report. The Contracting Officer provided similar delegations to the
NASA Center S&MA offices at Kennedy and the George S. Marshall Space Flight Center
(Marshall).

Johnson Procedures and Guidelines 1107.1A assigns the responsibility for independent review
of Space Shuttle Program safety to the Human Exploration and Development of Space (HEDS)
Independent Assurance Office. The HEDS Independent Assurance Office is responsible for
providing “credible, objective, and nonadvocacy reports regarding the integrity of the HEDS
Enterprise11 and program processes.” According to the Johnson guidelines, the office “assesses
whether the HEDS Enterprise is achieving its safety and mission objectives with an acceptable
level-of-risk.”

The officials and organizations responsible for Space Shuttle Program Safety at Johnson and the
associated lines of authority are shown in Appendix D of this report. The appendix also
contains the specific responsibilities for each official or organization as documented in Johnson
Procedures and Guidelines 1107.1A, “The Johnson Organization,” and NSTS 07700.

Johnson Safety Office Support for the Space Shuttle Program

The Johnson Safety Office did not provide the matrixed personnel support12 to the Space
Shuttle Program Safety Manager as required by NSTS 07700 and as detailed in the
Contracting Officer’s Letter of Delegation. The Space Shuttle Program Safety Manager told us
that the Johnson Safety Office provided him only with input for the SFOC award fee and that
office had not provided any of the required support detailed in the delegation letter. The
Johnson Safety Office did not accept the delegation until August 16, 2000, or about 2 years



10
   The delegation for support was by a Letter of Contract Administration Delegation, NASA Form 1430A.
11
   NASA has established the five Strategic Enterprises to function as primary business areas for implementing NASA's
mission and serving its customers. Each Enterprise has a unique set of strategic goals, objectives, and implementation
strategies that address the requirements of the Agency's primary customers. NASA's five Strategic Enterprises are (1)
Space Science, (2) Earth Science, (3) HEDS, (4) Aerospace Technology, and (5) Biological and Physical Research.
12
   The Johnson Safety Office is required to provide support to the Space Shuttle Program Safety Manager. The
Director of the Johnson Safety Office is responsible for managing all the staff, both civil servants and contractor
personnel, to perform this task.


                                                          3
after the initial delegation.13 The other Center Safety offices (Kennedy and Marshall) accepted
the delegation shortly after receiving the December 1998 delegation letter. The Chief of the
Space Shuttle Division of the Johnson Safety Office told us that his office did not respond to nor
provide the support detailed in the delegation letter because his office must remain independent
of the Space Shuttle Program. He further explained that his office responds to the Space
Shuttle Program Safety Manager only in his capacity as the SFOC TMR for S&MA, and as
such, provided only information pertaining to the SFOC award fee evaluation. As a result, the
Space Shuttle Program Safety Manager was not provided the resources necessary to
adequately provide oversight of all S&MA activities in support of the Space Shuttle Program as
described in NSTS 07700.

Space Shuttle Program Safety Responsibilities

The lack of matrixed personnel support from the Johnson Safety office occurred primarily
because Johnson did not clearly define the roles, responsibilities, and lines of authority for the
Space Shuttle Program Safety Manager and the Johnson Safety Office regarding Space Shuttle
Program safety. As detailed in Appendix D of this report, Johnson’s organizational structure
and description of responsibilities for safety of the Space Shuttle Program overlap, conflict with
SFOC requirements, and are unclear as follows:

•    The job descriptions and responsibilities of the Space Shuttle Program Safety Manager and
     the Chief, Johnson Safety Office Space Shuttle Division, are nearly identical with each
     official reporting to a different manager. This overlap in responsibilities conflicts with the
     SFOC and NSTS 07700, which requires the Chief, Johnson Safety Office Space Shuttle
     Division, to provide matrixed personnel support to the Space Shuttle Program Safety
     Manager in fulfilling requirements applicable to the safety, reliability, and quality assurance
     aspects of the Space Shuttle Program. The Johnson Safety Office Space Shuttle Division
     did not provide that matrixed personnel support.

•    The HEDS Independent Assurance Office14 and the Johnson Safety Office Space Shuttle
     Division are both providing independent assessments of the safety of the Space Shuttle
     Program. This overlap conflicts with (1) Johnson Procedures and Guidelines 1107.1A,
     which requires only the HEDS Independent Assurance Office to provide independent
     assessments of the Space Shuttle Program's safety, and with (2) NSTS 07700, which
     requires the Chief, Johnson Safety Office Space Shuttle Division, to provide matrixed
     personnel support to the Space Shuttle Program Safety Manager.




13
   Acceptance of delegation is documented by NASA Form 1431, “Letter of Acceptance of Contract Administration
Delegation,” that the Director of the Johnson Safety Office signed on August 16, 2000.
14
   The HEDS Independent Assurance Office, although physically located at Johnson, reports to the Associate
Administrator for S&MA at NASA Headquarters.


                                                       4
•   The Johnson organizational structure is unclear in that there appears to be an additional
    organization responsible for Space Shuttle Program safety when, in fact, the organization
    does not exist. The Space Shuttle Safety, Reliability, and Quality Assurance Office (shown
    on the Johnson organization chart as responsible to the Space Shuttle Program Office) is the
    same organization as the Johnson Safety Office Space Shuttle Division. Johnson
    Procedures and Guidelines 1107.1A does not cite the Space Shuttle Safety, Reliability, and
    Quality Assurance Office.

These duplicate responsibilities have resulted in disagreement among Space Shuttle Program
and S&MA managers about who is ultimately responsible for (1) the safety of the Space Shuttle
Program, (2) support for the Space Shuttle Program Safety Manager, and (3) independent
assessment of Space Shuttle Program safety. Management should clarify the current
organizational structure by defining which office is responsible for the respective areas to avoid
any duplication of effort and to ensure optimal Space Shuttle Program safety management.

Control Over Space Shuttle Program Safety

As a result of the confusion and disagreement over Space Shuttle Program safety
responsibilities, the Space Shuttle Program Manager (1) did not have adequate control over
$13 million in Space Shuttle Program funds provided to the Johnson Safety Office and (2) had
less effective oversight of key safety components of the Space Shuttle Program performed by
USA.

•   Use of Space Shuttle Program Funds. The Johnson Safety Office Space Shuttle
    Division receives annual funding of about $13 million from the Space Shuttle Program for
    providing matrixed personnel support for safety oversight. The Chief Johnson Safety Office
    Space Shuttle Division provided us work instructions as evidence of the functions that the
    Division performs. However, the Division did not provide the specific support to the Space
    Shuttle Program Safety Manager as described in the SFOC Contracting Officer’s
    December 3, 1998, delegation letter. Thus, the Space Shuttle Program Manager did not
    have adequate control over the funding since it was not used as intended nor was it directly
    controlled by his organization.

•   Oversight of Safety of Key Components of the Space Shuttle Program. Because the
    Space Shuttle Program Safety Manager did not receive the required support from the
    Johnson Safety Office, the Agency has no assurance of oversight of the safety status of key
    components of the Space Shuttle Program. Key components include Shuttle integration,
    orbiter, flight software, extra vehicular activity and flight crew




                                                5
      equipment, flight operations, flight crew preparation and crew/vehicle integration, and the
      safe operations on and around critical NASA hardware at USA’s subcontractor facilities in
      southern California.15

More clearly defined roles and responsibilities regarding the safety of the Space Shuttle
Program would promote safer Space Shuttle operations and better control of $13 million in
Space Shuttle Program funds. Johnson management should clarify those roles and
responsibilities to ensure they define which office has responsibility for the (1) safety of the
Space Shuttle Program; (2) support for the Space Shuttle Program Safety Manager; and (3)
independent assessment of Space Shuttle Program safety.

Recommendations, Management’s Response, and Evaluation of
Management’s Response

The Director, Lyndon B. Johnson Space Center, should:

       1. Clarify the Space Shuttle Program/SFOC organizational structure, NSTS
       07700, and Johnson Procedures and Guidelines 1107.1A by defining the roles,
       responsibilities, and lines of authority for (1) safety of the Space Shuttle
       Program; (2) support for the Space Shuttle Program Safety Manager; and (3)
       independent assessment of Space Shuttle Program safety.

       2. Provide the Space Shuttle Program Safety Manager the support required by
       the SFOC and NSTS 07700.


Management’s Response. Concur. Regarding recommendation 1, Johnson plans to revise
the appropriate documentation to clarify the roles and responsibilities for support for the Space
Shuttle Program Safety Manager and independent assessment of Space Shuttle Program safety.
In response to recommendation 2, Johnson plans to prepare annual operating agreements that
will delineate the products and tasks to be completed by the Johnson Safety Office. The
complete text of management's response is in Appendix F.

Evaluation of Management’s Response. Management’s planned actions are responsive to
the recommendations. The recommendations are resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




15
  Operations consist of Space Shuttle orbiter sustaining engineering and maintenance at Boeing’s Reusable Space
System’s (a major subcontractor of USA) Palmdale, and Huntington Beach, California, facilities.


                                                          6
Finding B. NASA Surveillance of USA

NASA’s surveillance plans for USA do not adequately address all contract requirements for
safety. Surveillance plans are incomplete because Johnson does not have a system for review
and approval of the plans. As a result, NASA management, including the SFOC Contracting
Officer, COTR, TMR’s, and Space Shuttle Program managers, have less effective means of
monitoring USA operations to assure that SFOC safety objectives are being met.

SFOC Requirements for Contractor Surveillance

Section A of the SFOC states that one of NASA's roles with regard to the contract is to
“perform surveillance, audits, and technical insight of contractor activities.” SFOC Section G.9
allows the Contracting Officer to appoint TMR’s to assist with surveillance. Under this
authority, the Contracting Officer appointed a total of 11 TMR’s and assigned specific contract
responsibilities to each through a formal delegation letter. The delegation letter requires each
TMR to:

                Establish and provide to the COTR and Contracting Officer, a surveillance plan
                that will ensure receipt of the quantity and kinds of supplies or services
                required by the Statement of Work of the contract. The surveillance plan shall
                include, but not be limited to, identification of how the contractor will be
                evaluated against the metrics identified in attachment J-1-B of the contract.


The Contracting Officer, COTR, and the TMR for S&MA required each TMR to provide input
to the TMR for S&MA regarding safety issues in each of the TMR’s delegated areas. That
input was to be documented in each TMR's respective surveillance plan. The surveillance plan
for the TMR for S&MA states:

                All TMRs are responsible for Safety and Product Assurance for their specific
                areas of responsibility. Specific SMA [Safety and Mission Assurance] insight
                is provided by the institutional SMA [Safety and Mission Assurance]
                organizations through direct participation in these functional areas, and the
                various surveillance methodologies are documented within the various TMR
                SFOC surveillance plans. Insight activity results are provided to both the
                functional area TMR and the SMA [Safety and Mission Assurance] TMR.

NASA SFOC Surveillance Plans

Most of the surveillance plans that we examined contain detailed procedures for assessing the
quality of the supplies and services provided under the SFOC. However, the surveillance plans
do not sufficiently address safety to ensure adequate oversight of USA’s safety operations.


•   The surveillance plan for the TMR for S&MA is incomplete and does not fully address the
    TMR’s delegated responsibilities. The plan basically reiterates the performance standards,


                                                      7
     metrics, and data requirements that were already addressed in the SFOC's Statement of
     Work. The surveillance plan does not describe specific surveillance methodologies used by
     the TMR for S&MA to ensure that the contractor implements the requirements of SFOC
     Statement of Work, paragraph 1.3, “Safety, Mission Assurance and Product Assurance.”
     The surveillance plan does describe how the other TMR’s were to address safety in their
     respective surveillance plans.

•    The contractor surveillance plans for 8 of the 10 other TMR’s do not describe specific
     surveillance methodologies to ensure safe operations within the TMR’s areas of
     responsibility16 as documented in the TMR for S&MA’s surveillance plan. In addition,
     none of the plans required or described any type of input to, or coordination with, the TMR
     for S&MA as required by the Contracting Officer, COTR, and the TMR for S&MA.
     Furthermore, five of the surveillance plans did not address safety.

•    The Contracting Officer did not delegate a key contract requirement for safety--risk
     management-- to a TMR which resulted in the area not being covered by a surveillance plan
     for nearly 4 years after contract award. Risk management is key to safe Space Shuttle
     Program operations because, as stated in the SFOC, paragraph 1.1.1.4, risk management
     requires the contractor to report all anomalies that represent safety, mission success, and
     major program schedule milestone risks to the Government.

Although most of the surveillance plans adequately addressed quality, the plans should better
address specific safety surveillance procedures for all contract areas including risk management
and procedures for coordinating with the TMR for S&MA.

Contracting Officer Review and Approval of Surveillance Plans

The contractor surveillance plans did not adequately address all contract requirements for safety
because the SFOC Contracting Officer did not establish a process for review and approval of
the plans. The former SFOC Contracting Officer, who required each TMR to prepare and
submit a surveillance plan, never reviewed the plans for adequacy. The current Contracting
Officer told us that he relies on the fact that the Space Shuttle launches and lands successfully,
which assures him of the contractor’s safe and adequate performance. The Contracting Officer
has not received contract surveillance training and stated that he expected the COTR to keep
him informed on the technical aspects of the SFOC such as the adequacy of surveillance plans.
The TMR for S&MA told us that he was certain the original surveillance plans addressed
safety, but they were revised, and he had not reviewed the revised plans. We found no
evidence of review and approval of any of the current surveillance plans by the Contracting
Officer, COTR, or TMR for S&MA.


16
   The specific areas of responsibility were cargo integration, flight crew operations, orbiter logistics, management
integration, flight software, vehicle engineering, International Space Station, and Shuttle process integration.


                                                             8
Surveillance Plans as Management Tools

Without detailed surveillance plans for the safety operations of all key elements of the SFOC,
Johnson management, Space Shuttle Program Managers, the COTR, and the Contracting
Officer lack a valuable management tool to assess and measure the surveillance NASA
performs on USA’s safety operations and to ensure accountability for that surveillance. To
ensure that USA is operating safely, detailed surveillance plans should specify a surveillance
strategy; list the specific surveillance activities to be performed (inspections, audits, etc.); and
identify how USA will be evaluated against the metrics specified in the SFOC.

Johnson management has begun a process for evaluating and improving the plans. Johnson
should complete this process and ensure that each key element of the SFOC is covered by a
detailed surveillance plan.

Recommendations, Management’s Response, and Evaluation of
Management’s Response

The Director, Lyndon B. Johnson Space Center, should:

      3. Direct the SFOC Contracting Officer to ensure that a TMR and an
      accompanying surveillance plan cover all key elements of the SFOC Statement
      of Work, including risk management.

Management’s Response. Concur. On July 12, 2000, the SFOC Contracting Officer
revised the delegation for the TMR for S&MA to include responsibilities for risk management.
The complete text of the response is in Appendix F.

Evaluation of Management’s Response. The actions taken by management are responsive
to the recommendation. We consider the actions sufficient to disposition the recommendation,
which will be closed for reporting purposes.

      4. Update each SFOC TMR's contractor surveillance plan to specifically
      describe the methods, monitoring requirements, and insight mechanisms
      necessary to ensure safe operations and the receipt of the quantity and types of
      supplies or services required by the Statement of Work.

      5. Coordinate the safety aspects of each SFOC contractor surveillance plan with
      the TMR for S&MA.

Management’s Response. Concur. Regarding recommendation 4, the COTR and SFOC
Contracting Officer performed a detailed audit of the TMR surveillance plans. The audit




                                                   9
included the definition of activities and processes used to ensure safety of products and services.
Each TMR is implementing surveillance plan updates in response to the audit.

For recommendation 5, the SFOC COTR and Contracting Officer required the TMR’s to
coordinate their revised surveillance plans with the TMR for S&MA (see Appendix F).

Evaluation of Management’s Response. Management’s planned actions are responsive to
the recommendations. The recommendations are resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




                                                10
Finding C. USA Management Plan

USA has not performed the required update of its SFOC Management Plan to reflect current
operations. The plan is not current because neither the COTR nor TMR for S&MA notified the
Contracting Officer or took action to ensure that USA would update the plan. As a result,
NASA lacks a key management tool for monitoring and measuring USA’s safety, management,
and performance under the SFOC contract.

Contract Requirements for a Management Plan

SFOC paragraph 1.1, “Program and Business Management,” states that “The contractor shall
provide and maintain program management systems . . . , for the planning, organization, control,
and reporting of all activities required by this contract.”

Paragraph 1.1.1.1 of the SFOC requires USA to provide and maintain a management plan.
USA's Management Plan, which was approved by the SFOC COTR, states:

                The MP [management plan] represents the most current baseline on
                management approaches, organization, roles and responsibilities, interfaces, etc.
                It provides a control document that governs the contractor’s management of
                SFOC . . . . For these reasons, this MP [management plan] should be
                considered a living document that will require periodic update.


Chapter 9 of USA's Management Plan is dedicated to system safety and mission assurance.
The chapter addresses NASA and USA goals and objectives, organizational structure, and
major processes relating to the safety of the Space Shuttle Program. In addition, specific safety
activities are covered throughout the Management Plan.

Updating the USA Management Plan

USA has not updated its Management Plan as required. Although the SFOC has had more
than 500 modifications since its inception, the current Management Plan contains out-of-date or
inaccurate key information such as the names of subcontractors and key management personnel,
including safety personnel from NASA and USA. As a result, the SFOC objective of having a
program management system for planning, organizing, controlling, and reporting all SFOC safety
activities has not been fully achieved.

The SFOC COTR and the USA Vice President for Safety, Quality, and Mission Assurance
told us that the original intent of the Management Plan was to provide a documented
management approach for the SFOC but that the plan had outlived its usefulness. The USA
Vice President also stated that USA uses the plan only as a directory to various supporting
plans within the company. He added that USA delivered a revised Management Plan to NASA
in February 1998, but because of higher priorities, NASA had neither reviewed the plan nor



                                                       11
published it. The SFOC has had more than 500 changes with the first significant change17 to the
contract occurring less than a month after contract award. Yet, the Management Plan that was
in effect during the time of our audit was the original baseline plan dated November 22, 1996.

Management Plan Review Procedures

Neither the Space Shuttle Program nor SFOC management had established procedures to
ensure that USA’s Management Plan was kept current. The SFOC COTR did not notify the
Contracting Officer to take action to ensure that USA's SFOC Management Plan had been
updated as required by the contract. The Contracting Officer’s delegation letters to the COTR
and TMR for S&MA required both individuals to monitor contractor performance and to
immediately report all problems to the Contracting Officer. As discussed earlier, the SFOC
COTR and the Space Shuttle Program Safety Manager were aware that USA’s Management
Plan was not current. However, neither worked with the Contracting Officer to take corrective
action.

Management Plan Use

Without a current management plan, NASA lacks a valuable tool for monitoring and measuring
USA’s management of SFOC safety. In addition, the SFOC COTR describes the
Management Plan in his SFOC surveillance plan as a management tool for “work review and
performance monitoring surveillance.” A current Management Plan would help improve
NASA’s surveillance of USA’s SFOC safety and better assist NASA in assessing management
effectiveness, which is an evaluation factor in the SFOC award fee plan.

Recommendations, Management’s Response, and Evaluation of
Management’s Response

The Director, Lyndon B. Johnson Space Center, should direct the SFOC Contracting
Officer to:

       6. Notify USA to update the current SFOC Management Plan to reflect current
       operations in the Space Shuttle Program and in USA's SFOC management
       approach.

       7. Establish procedures to ensure that USA’s SFOC Management Plan is kept
       current in accordance with paragraph 1.1.1.1 of the SFOC.

Management’s Response. Concur. Regarding recommendation 6, Johnson management
received a proposed revision to the SFOC Management Plan on October 11, 2000. Johnson

17
  Modification number 4, dated December 16, 1996, directed the contractor to perform soil borings and chemical
analyses at the NASA Industrial Plant in Downey, California.


                                                         12
determined that the plan needed modification, and the contractor is modifying it for Johnson's
review and approval. In relation to recommendation 7, Johnson will require that the
Management Plan be updated on an annual basis as well as within 45 days of the transition of
any additional contracts into the SFOC. The complete text of the response is in Appendix F.

Evaluation of Management’s Response. Management’s planned actions are responsive to
the recommendations. The recommendations are resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




                                               13
Finding D. USA Mishap Reporting

The classification and reporting of USA's close calls and mishaps18 can be improved at
Kennedy and Johnson. Specifically, USA (1) either did not report or promptly report all close
calls and mishaps into the IRIS and (2) reported incomplete or out-of-date data into the IRIS.
This occurred because Johnson uses systems other than the IRIS to record and track close calls
and mishaps. In addition, neither the Kennedy nor Johnson S&MA offices reviewed USA's
mishap reporting on a regular basis to ensure that all information is current and complete.
Consequently, NASA’s mishap information system is not as effective as possible in tracking and
monitoring mishaps and their corrective actions.

NASA Mishap Reporting Guidelines

The IRIS is NASA’s Agencywide automated system for tracking mishap and injury information.
The IRIS enables the real-time reporting of mishaps and injuries and facilitates detailed mishap
investigation and follow-up documentation. The IRIS provides a valuable tool for reporting
mishap information to NASA management and outside sources and is the Agency's primary
system for accumulating data on employee injuries and lost time rates.

NPG 8621.1, “NASA Procedures and Guidelines for Mishap Reporting, Investigating, and
Recordkeeping,” June 2, 2000, provides specific, Agencywide procedures regarding mishaps.19
The NPG states that when a mishap occurs, each NASA Center’s S&MA officials shall,
“ensure all NASA reportable mishaps and close calls . . . are recorded and submitted
electronically to the IRIS." The NPG also states that, “by close of business the next workday,
the Center safety office will submit a follow-up electronic NASA Form 1627-A20 initial report
using the IRIS.”

Analysis of Mishaps at Johnson and Kennedy

We reviewed the documentation supporting USA’s reported mishaps that occurred at Johnson
and Kennedy from October 1997 through June 2000. The documentation for 104 of the 177
mishaps that we examined showed that USA recorded the mishaps promptly and thoroughly

18
   NPG 8621.1 defines a close call as a situation or occurrence with no injury, no damage or only minor damage (less
than $1,000), but possesses the potential to cause any type mishap, or any injury, damage, or negative mission impact.
(A close call is not considered a mishap, but the mishap reporting, investigation, and recordkeeping and recurrence
control guidelines will be followed).
19
   SFOC Attachment J-11 (a) references NASA Handbook 1700.1 (volume 1), “NASA Basic Safety Manual.” On
January 24, 2000, NPG 8715.3, "NASA Safety Manual," replaced NASA Handbook 1700.1. Paragraph 1.3 of the
NASA Safety Manual states that requisite safety program principles include the “Investigation of all hazardous
conditions, close calls, environmental incidents, and mishaps, without retribution to the employees, and the prompt
publication of lessons-learned as part of accident prevention and a continuous improvement effort." Procedures for
mishap and close call reporting are in NPG 8621.1.
20
   NASA Centers use NASA Form 1627-A, "NASA Initial Safety Incident Report," to report mishap and close call
information to the IRIS.


                                                          14
and identified appropriate follow-up actions. Although USA has a detailed, well-documented
system for reporting and followup on mishaps at both Kennedy and Johnson, further
improvements can be made. Details on areas requiring improvement follow:

Johnson Close Call and Mishap Reporting

Close Call Reporting. The IRIS contained no evidence of USA input directly or through
Johnson, on USA close calls at Johnson. Employees at Johnson report close calls to
management who, in turn, input the data into the Center's Close Calls Database (not the IRIS).
Johnson safety officials stated that this process is a way for employees to file complaints or
concerns noted across the Center and that not all reported information falls under the NPG
8621.1 definition of a close call. Because the close calls are not maintained in the IRIS, there is
no way of determining whether USA is reporting its close calls. For example, during calendar
years 1998 and 1999, Johnson employees reported 1,755 close calls. However, because this
information is maintained in a separate database and contains no unique identifiers, there is no
way of determining how many of the close calls are related to USA. The close calls were
generally employee slips, trips, and falls and other injuries; electrical hazards; and fire hazards
that had the potential for serious injury or property damage as illustrated below:

•   A coil in an air conditioning unit became loose and overheated resulting in a burning smell
    and smoke (April 1998).

•   A lawnmower severed a natural gas line (July 1998).

•   An electrical arc created by a faulty light fixture emitted sparks that landed near personnel
    after discoloring the ceiling (December 1998).

Although Johnson’s Close Call Database showed that management implemented corrective
action for each close call, Johnson did not report the close calls into the IRIS. Johnson should
ensure that applicable close call information is promptly reported into the IRIS.

Mishap Reporting. Of a total of 54 USA mishaps at Johnson in fiscal year (FY) 1998, 33
(61 percent) were still reported as being open. These mishaps have been open from 21 to 32
months; therefore, we question whether the information in Johnson's Close Calls Database was
current or whether corrective actions had been or were being taken to resolve the mishaps. In
addition, from October 1, 1997, through June 2000, 67 (46 percent) of 146 USA-reported
mishaps did not have corrective actions recorded in Johnson’s mishap reporting system
(Frequently Retrieved Executive Data System). Although most of the 146 mishaps were
injury/illness related and may not have required corrective actions, Johnson was unable to
provide us any documentation on corrective actions.

The USA mishap information in Johnson’s reporting system was not always current because
Johnson safety officials do not review USA mishap reporting on a regular basis to ensure that all


                                                15
information is current, complete, and input into IRIS. Periodic reviews by the Johnson Safety
Office of mishap information compiled and reported by USA would ensure that the information
reported in IRIS is current, accurate, and reliable for management use.

Johnson Uses System other than IRIS. USA did not input its Johnson mishaps and close
calls into the IRIS primarily because Johnson did not use the IRIS on a daily basis to record and
track mishaps and close calls. Rather, Johnson inputs mishap and close call information for the
Center, including USA, into its own reporting system, the Frequently Retrieved Executive Data
information system. Johnson uploads the data in that system to the IRIS only once a month.
Johnson safety officials told us that the IRIS was not effective for their needs because it did not
allow for tracking of mishaps and close calls by responsible directorate. The safety officials also
informed us that the NASA Headquarters Office of S&MA provided Johnson with oral
approval to deviate from NPG 8621.1 requirements by primarily using the Frequently Retrieved
Executive Data information system in place of the IRIS. NASA Headquarters S&MA officials
told us that they allowed Johnson to use its own system with the expectation that Johnson would
provide a mechanism for updating the IRIS with all required information on a real-time basis.
Johnson management told the NASA Headquarters Office of S&MA that work is under way to
implement a feeder system but that it was not yet developed. Johnson should ensure that it
reports USA mishap and close call information into IRIS on a daily basis in accordance with
NPG 8621.1 and that it keeps current all information regarding corrective actions and closeout.

Kennedy Mishap Reporting

Kennedy did not use the IRIS to report all USA-related mishaps. USA uses an internal "flash
report" for the initial reporting of mishaps.21 The USA Safety office reviews the flash reports to
determine whether the event is a reportable mishap (to IRIS) and who within USA is
responsible for the investigation and implementation of corrective actions. Through our review of
a judgmental selection of 31 flash reports22 for the period October 1997 through June 2000, we
determined that 6 (19 percent) of 31 sampled mishaps related to USA were not reported in
IRIS. The six mishaps included, for example, an incident in March 1999 during which a 50-80
pound regulator slipped while being removed from a panel in the Vehicle Assembly Building at
Kennedy and injured a technician. In an April 1999 incident, two technicians dropped a heat
shield while relocating it in the Orbiter Processing Facility at Kennedy. Despite completed USA
flash reports for both of these incidents, USA did not report them into the IRIS. Similarly, the
other four incidents were documented in flash reports but not reported to the IRIS.
The USA mishaps documented in the flash reports were not always recorded in the IRIS
because there is no requirement for Kennedy safety officials to review USA mishap reporting on
a regular basis to ensure that all information is current, complete, and recorded in the IRIS.


21
   The purpose of flash reports is to communicate timely and factual information on incidents of significant interest or
of a sensitive nature to USA program and senior-level management.
22
   The sample consisted only of flash reports that, according to the USA safety office, were serious enough that they
should have been reported to the IRIS.


                                                           16
Periodic reviews by the Kennedy Safety Office of mishap information compiled and reported by
USA would ensure that the information reported in IRIS is current, accurate, and reliable.

Importance of Accurate IRIS Information

As NASA’s Agencywide automated system for tracking mishap and injury data, the IRIS must
contain current, accurate, and reliable information. Work-related mishap data are entered into
IRIS for review by the Centers to assure that similar mishaps are not occurring and to determine
lost work time rates to compare the NASA Centers’ rates to the national average. Inconsistent
and untimely reporting of SFOC mishaps may adversely affect NASA’s ability to (1) develop
safety metrics; (2) record and report mishap information to external organizations, such as the
Occupational Safety and Health Administration; (3) evaluate the contractor’s performance in
fulfilling safety responsibilities; (4) establish a baseline of data for use in analyzing trends; and (5)
develop corrective actions, lessons learned, and mishap prevention programs. Management
should ensure that USA is effectively recording mishap data in the IRIS.

Recommendations, Management’s Response, and Evaluation of
Management’s Response

The Director, Lyndon B. Johnson Space Center, should:

      8. Report promptly all Johnson mishaps and close call information into IRIS.

      9. Direct the SFOC Contracting Officer to ensure that all USA mishap
      information, including close calls, is promptly reported into IRIS on a daily basis
      as required by NPG 8621.1 and that all information regarding corrective actions
      and mishap closeout is kept current in IRIS.

      10. Direct the SFOC Contracting Officer to ensure that NASA safety officials
      review USA's mishap reporting on a periodic basis to ensure that all information
      is current and complete and properly input into the IRIS.

Management’s Response. Concur. Johnson management will work with the NASA
Headquarters’ Office of S&MA to ensure that a process is in place to facilitate the prompt
reporting of mishaps and close calls. If it is determined that IRIS is not the appropriate
reporting tool as a result of technical considerations, Johnson will propose an alternative
approach. Regarding recommendation 9, Johnson stated that in conjunction with developing a
process to facilitate prompt reporting to NASA Headquarters, NASA Center S&MA offices
will work with the Space Shuttle Program Safety Manager to ensure the timely and accurate
reporting of USA mishap and close call information. In response to recommendation 10,
Johnson stated that senior management currently reviews and analyzes mishap data through
various forums such as the Executive Safety Committee and Incident Error Review Boards.



                                                   17
Johnson will include the review of mishap data as a specific focus in its 2001 TMR surveillance
plan audits. The complete text of management's response is in Appendix F.

Evaluation of Management’s Response. Management’s planned actions are responsive to
the recommendations. The recommendations are resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed.




                                               18
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective is to evaluate the USA safety procedures for NASA’s SFOC. The
specific objective related to this report was to determine whether NASA is performing effective
oversight of USA’s safety program.

The remaining objectives, which will be discussed in a separate report, are to determine
whether:

    • safety responsibilities between USA and NASA are clearly defined and

    • hazardous materials used in contract performance are properly controlled.

Scope and Methodology

To accomplish our objectives we:

•   Held discussions with NASA SFOC management including the Contracting Officer,
    Assistant Contracting Officers, COTR, and TMR’s; Johnson Space Shuttle Program staff
    including the Assistant Program Manager and the Space Shuttle Program Safety Manager;
    Johnson Safety Office staff; and USA Safety, Quality and Mission Assurance staff at
    USA’s Headquarters in Houston, Texas, and at Kennedy.

•   Reviewed the documents listed in Appendix C and the SFOC TMR Delegation Letters;
    SFOC TMR Surveillance Plans; Johnson Procedures and Guidelines 1107.1A, “The JSC
    [Johnson] Organization”; NPG 8621.1, “NASA Procedures and Guidelines for Mishap
    Reporting, Investigating, and Recordkeeping”; USA/Kennedy Internal Ground Operations
    Safety reports; Safety and Mission Assurance Functional Policy and Procedure E-02-01,
    “Mishap Reporting and Investigation,” dated September 25, 1998; and SFOC Program
    Directive 006B, SFOC “Flash Reports,” dated October 11, 1996.

•   Reviewed documentation on USA mishaps that occurred at Kennedy and Johnson.
    Specifically, we queried the NASA IRIS during May and June 2000 to identify and review
    USA mishaps occurring at Kennedy from October 1, 1997, through June 2000. We also
    reviewed mishap reports from October 1, 1997, through June, 2000, for those USA
    mishaps occurring at Johnson. We selected and reviewed a judgmental sample of USA’s
    internal flash reports for its mishaps occurring at Kennedy in FY 1998 through FY 2000
    and traced those reports through the IRIS.




                                               19
20
                                                                                                   Appendix A

Management Controls Reviewed

We reviewed Johnson’s overall management organizational structure for the Space Shuttle
Program and SFOC safety program to ensure that USA was performing all contractually
specified safety requirements. As a guideline, we followed the General Accounting Office’s,
"Standards for Internal Control in the Federal Government," November 1999, which states:

               A positive control environment is the foundation for all other standards . . . .
               [A] factor affecting the environment is the agency’s organizational structure. It
               provides management’s framework for planning, directing, and controlling
               operations to achieve agency objectives. A good internal control environment
               requires that the agency’s organizational structure clearly defines key areas of
               authority and responsibility and establishes appropriate lines of reporting.


We found a weakness in Johnson’s management control structure related to NASA oversight of
USA's safety operations under the SFOC. This weakness is discussed in detail in the findings
and recommendations section of the report.

Audit Field Work

We conducted field work from June through November 2000 at NASA Headquarters,
Johnson, Kennedy, and at USA Headquarters in Houston, Texas. We performed the audit in
accordance with generally accepted government auditing standards.




                                                     21
               Appendix B. Summary of Prior Audit Coverage

“Contract Safety Requirements at Kennedy Space Center and Marshall Space Flight
Center,” Report Number IG-00-035, June 5, 2000. The NASA Administrator stated in a
January 19, 1999, message that safety is the Agency’s highest core value. On February 26,
1999, the Administrator emphasized the need for NASA contractors to be supportive of and
accountable for safety. The overall objective of the audit was to evaluate the safety procedures
of NASA contractors. We found that NASA was not applying existing basic safety provisions
such as required contract safety clauses, contractor safety plans at contract award and Center
safety office involvement in the procurement process to 15 out of 25 contracts that we reviewed
at Kennedy and the George C. Marshall Space Flight Center. As a result, NASA contractors
including some involved in hazardous operations may not be supporting the same safety goals as
NASA. We recommended that management identify all open contracts that either involve
potentially hazardous operations or exceed $1 million and determine whether those contracts
have the required safety clauses and contractor safety plans. Management concurred with our
recommendations and implemented corrective actions to ensure that all applicable contracts
contained the required safety documentation.

“Safety Concerns with Kennedy Space Center’s Payload Ground Operations,” Report
Number IG-00-28, March 30, 2000. In February 1999, the NASA Office of Inspector
General was requested by the House of Representatives Committee on Science to address
concerns related to the safety functions of Kennedy’s Payload Ground Operations Contract
performed by McDonnell Douglas Aerospace, Space and Defense Systems, a subsidiary of
The Boeing Company (Boeing). In response to this request, we reviewed the contractor’s
operations to determine whether (1) safety responsibilities between Boeing and NASA had
been clearly defined; (2) hazardous materials were being used in Kennedy’s processing
facilities; and (3) hazardous materials, if used, were properly controlled. The audit identified
that ground workers were using potentially hazardous materials in Kennedy processing facilities
without exercising proper control and safety precautions. This condition existed because (1)
Boeing safety personnel had not performed adequate, contract-required inspections of the
facilities; (2) Kennedy and Boeing safety personnel had not reviewed Materials Usage
Agreements that authorized the use of noncompliant materials; and (3) Kennedy and Boeing
safety personnel did not perform risk analyses to support the materials usage agreements. As a
result, NASA lacks assurance that associated risks are adequately identified, documented,
reviewed, and mitigated. Improper use of these materials is hazardous to ground workers and
increases the risk of damage to Space Shuttle payloads, including International Space Station
hardware and equipment. We recommended that management (1) direct the contractor to
perform analyses to support the use of all materials that do not meet requirements for
flammability and electrostatic discharge, (2) clarify instructions for preparation of Materials
Usage Agreements, and (3) increase surveillance of the contractor’s safety office inspection
procedures. Management concurred with each recommendation and implemented a number of
procedures to control all noncompliant materials.



                                               22
                   Appendix C. Agency Safety Requirements Referenced by the SFOC

              As part of our audit, we reviewed the following Agency requirements incorporated by reference
              into the SFOC:


                                                  Space Flight Operations Contract
                                                            NAS9-20000


 Attachment J.11           Section A              Section E                  Section G                  Section J-1-A
                          Solicitation/     Quality Requirements       Contract Administration       Statement of Work
                         Contract Form


NASA Handbook                                                                 Paragraph 1.0            Paragraph 1.3       Paragraph 1.1.1.1
 1700.1 - NASA                                                             (Imposes NSTS 07700)      Safety and Mission   (Management Plan
 Safety Manual                                                                                           Assurance           Requirement)


   NPG 8621.1                                                                   NSTS 07700                                     USA
Mishap Reporting,                                                          Space Shuttle Program                          Management Plan
Investigating, and                                                           Requirements and
  Recordkeeping                                                                 Description


                                                                      Volume I            Volume VIII
                                                                   SSP Roles and        Paragraph 4.0
                                                                   Responsibilities      Certificate of
                                                                                       Flight Readinesss


                                                                                          NSTS 08117
                                                                                       Requirements and
                                                                                         Procedures for
                                                                                        Flight Readiness



              Acronyms

              NPG              NASA Procedures and Guidelines
              NSTS             NASA Space Transportation System
              SSP              Space Shuttle Program
              USA              United Space Alliance




                                                                      23
           Appendix D. Johnson Space Shuttle Program Safety Responsibilities

          The Johnson organization chart identifies the officials and organizations responsible for Space
          Shuttle Program Safety (shown in bold) and the associated lines of authority.




Associate Administrator                                              Director
  Safety and Mission                                             Lyndon B. Johnson
      Assurance                                                    Space Center


HEDS* Independent                  Johnson Safety                                   Space Shuttle
Assurance Office (1)                   Office                                     Program Manager


                                 Johnson Safety                    Space Shuttle               Space Shuttle Safety
                                     Office                       Program Safety              Reliability and Quality
                              Space Shuttle Division                Manager (3)                Assurance Office (4)
                                       (2)

          *Human Exploration and Development of Space.


          The specific responsibilities follow for each official or organization as documented in Johnson
          Procedures and Guidelines 1107.1A, “The Johnson Organization,”and NSTS 07700 and
          through auditor observations:




                                                          24
Appendix D

(1) HEDS Independent Assurance Office

                Responsibilities in
      Johnson Procedures and Guidelines
                      1107.1A,                         Responsibilities in        Auditor
           “The Johnson Organization”                 SFOC/NSTS 07700*         Observation
 The Director of the HEDS Independent                 Not Cited.             1. The office’s
 Assurance Office reports to the NASA                                        requirements
 Associate Administrator for Safety and Mission                              under Johnson
 Assurance. The Director manages the HEDS                                    Procedures and
 Independent Assurance Office and is located at                              Guidelines
 Johnson, the HEDS Enterprise Lead Center.                                   1107.1A overlap
 This office consists of functional experts with                             some of the
 experience in operations, integration, system                               functions the
 engineering, and software independent                                       Johnson Safety
 verification and validation. The Director is also                           Office Space
 supported by the Chief, Safety, Reliability, and                            Shuttle Division
 Quality Assurance (SR&QA) Space Shuttle                                     performs.
 Division (Johnson Safety Office Space Shuttle                               Specifically, the
 Division).                                                                  Chief of the
                                                                             Johnson Safety
 The HEDS Independent Assurance Office                                       Office Space
 provides its customers with credible, objective,                            Shuttle Division
 and nonadvocacy reports regarding the integrity                             told us that his
 of the HEDS Enterprise and program processes.                               office is also
 This office focuses on the safety, technical                                responsible for
 integrity, and operation of the HEDS Enterprise                             independent
 and assesses whether it is achieving its safety                             assessment of
 and mission objectives with an acceptable level of                          Space Shuttle
 risk. The HEDS Independent Assessment Office                                Program safety.
 plans, coordinates, integrates, and reports the
 outcomes of its independent assessments. In
 general, independent assurance activities are
 planned to support Space Shuttle flight readiness
 and major program milestones.


* Space Flight Operations Contract/NASA Space Transportation System




                                                25
                                                                                     Appendix D

(2) Johnson Safety Office Space Shuttle Division

             Responsibilities in
  Johnson Procedures and Guidelines                Responsibilities in               Auditor
          1107.1A, “The Johnson                   SFOC/NSTS 07700*                  Observation
               Organization”
 Space Shuttle Division - The SR&QA           3.4.2.14 Safety Reliability        1. The office’s
 Space Shuttle Division ensures Shuttle                and Quality               requirements under
 flights are accomplished safely with high             Assurance                 Johnson Procedures
 mission assurance. The Division Chief                 (SR&QA)                   and Guidelines
 represents SR&QA on the Space Shuttle                                           1107.1A overlap
 Program Manager's staff. This                This function includes the         the requirements of
 representation includes all elements of      matrixed support effort and        the Space Shuttle
 SR&QA throughout the Agency that             resources necessary to support     Program Safety
 support the Space Shuttle Program. The       the Manager, Space Shuttle         Manager under
 Division signs the Certificate of Flight     Program Safety and Mission         NSTS 07700
 Readiness endorsements, supports             Assurance (Space Shuttle           paragraph 3.4.1.3.
 program change boards and program            Program Safety Manager) and
 milestone reviews, facilitates SR&QA         to assure the implementation of    2. The office did
 prelaunch assessment reviews, maintains      requirements applicable to the     not provide the
 SR&QA program requirements                   safety, reliability, and quality   matrixed support to
 documentation, administers the Space         assurance aspects of the Space     the Space Shuttle
 Shuttle Program joint survey program,        Shuttle Program.                   Program Safety
 and supports joint activities of the Space                                      Manager as
 Shuttle Program and the International                                           required by NSTS
 Space Station Program. The Division                                             07700 paragraph
 also provides safety engineering support                                        3.4.2.14.
 to the Payload Safety Review Panel and
 SR&QA support to the Extravehicular                                             3. The Division
 Activity Project for the Space Shuttle and                                      Chief told us that
 Space Station.                                                                  his office performs
                                                                                 an independent
 The SR&QA Space Shuttle Division                                                assessment of the
 manages the West Coast SR&QA                                                    safety of the Space
 Office, which ensures that NASA                                                 Shuttle Program.
 Johnson prime contractors operate safely                                        This overlaps the
 on Government property. The Division                                            requirements of the
 also provides prime contractor SR&QA                                            HEDS Independent
 oversight, hardware acceptance support,                                         Assurance Office
 and subcontractor Government source                                             under Johnson
 inspection support.                                                             Procedures and
                                                                                 Guidelines 1107.1A.




                                                26
Appendix D

(3) Space Shuttle Program Safety Manager

 Responsibilitie
        s in
    Johnson
  Procedures
 and Guidelines
 1107.1A, “The
    Johnson
 Organization”        Responsibilities in SFOC/NSTS 07700*                Auditor Observation
 Not cited.        3.4.1.3 Manager, Space Shuttle Program                The manager’s
                   Safety and Mission Assurance (S&MA)                   requirements under
                                                                         NSTS 07700 paragraph
                   The Manager, Space Shuttle Program Safety and         3.4.1.3. overlap the
                   Mission Assurance is responsible for managing the     requirements of the
                   Space Shuttle Safety and Mission Assurance            Johnson Safety Office
                   implementation and for oversight of all S&MA          Space Shuttle Division
                   activities in support of the Space Shuttle Program.   under Johnson
                   The manager is responsible to:                        Procedures and
                                                                         Guidelines 1107.1A.
                   a. Represent the Program Manager on S&MA
                      matters at internal and external forums.
                   b. Provide S&MA requirements, tasks, and
                      resource integration for NASA and contractor
                      support.
                   c. Develop program strategies for complying
                      with Agency S&MA policy and procedures
                      while ensuring strategies are responsive to
                      program requirements.
                   d. Evaluate program risks and advise the
                      Program Managers (Technical Management
                      Representatives) on their acceptability.
                   e. Ensure establishment of contractor S&MA
                      processes to assure that the Space Shuttle and
                      its related support systems are designed,
                      constructed, qualified, and operated
                      satisfactorily to perform their intended
                      purposes.




                                             27
                                                                             Appendix D

(4) Space Shuttle Safety, Reliability, and Quality Assurance Office

   Responsibilities in
Johnson Procedures and
  Guidelines 1107.1A,
     “The Johnson               Responsibilities in
     Organization”             SFOC/NSTS 07700*               Auditor Observation
Not Cited.                 Not Cited.                     The purpose of this office is
                                                          unclear because the office
                                                          exists in name only.




                                          28
    Appendix E. Key Space Shuttle Program Safety Responsibilities
               Delegated to the Johnson Safety Office

The SFOC Contracting Officer’s Letter of Contract Administration Delegation delegated the
following key areas of responsibility to the Johnson Safety Office.

•   Shuttle Integration
•   Orbiter
•   Flight Software
•   Extra-Vehicular-Activity and Flight Crew Equipment
•   Flight Operations
•   Flight Crew Preparation and Crew/Vehicle Integration

The delegated duties included:

•   Perform surveillance and evaluation of contractor and associated subcontractor/supplier
    activities associated with risk management and safety, reliability, maintainability, and quality
    assurance as defined in the statement of work or program requirements.
•   Gain real-time insight into activities at selected subcontractors. If delegation to other
    organizations is necessary, a strong framework of teamwork and regular communication
    should be developed and maintained.
•   Manage the resources provided to perform the obligations of this delegation.
•   Perform oversight of authorized subdelegated activities.
•   Provide S&MA evaluation and technical assessment of engineering change requests.
•   Evaluate contract deliverable products for compliance and acceptability.
•   Resolve S&MA technical issues in conjunction with USA managers as required to fully
    facilitate USA performance.
•   Prepare and maintain a Safety, Reliability, and Quality Assurance surveillance plan. This
    plan will outline the surveillance activity and information to be provided in support of the
    S&MA TMR.
•   Recommend to the Space Shuttle Program Safety Manager any desired changes in contract
    scope and/or technical provisions with justification.
•   Provide immediate notice of significant program problems or issues to the Space Shuttle
    Program Safety Manager.
•   Provide performance evaluation with substantiated metrics to the Space Shuttle Program
    Safety Manager.
•    Prepare and submit an annual audit schedule to the Space Shuttle Program Safety
    Manager.




                                                 29
Appendix F. Management’s Response




               30
Appendix F




             31
     Appendix F




32
Appendix F




             33
     Appendix F




34
                        Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/ Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Director, John F. Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Acting Director, John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space



                                             35
                                                                                Appendix G

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             36
               NASA Assistant Inspector General for Auditing
                              Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.

Report Title: Space Shuttle Program Management Safety Observations

Report Number:                                    Report Date:

Circle the appropriate rating for the following statements.

                                              Strongly                                Strongly
                                              Disagree   Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and            5        4       3          2           1      N/A

   logically organized.
2. The report was concise and to the             5         4        3         2          1       N/A

   point.
3. We effectively communicated the audit         5         4        3         2          1       N/A

   objectives, scope, and methodology.
4. The report contained sufficient               5         4        3         2          1       N/A

   information to support the finding(s) in
   a balanced and objective manner.

Overall, how would you rate the report?

     Excellent            Fair
     Very Good            Poor
     Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

  Yes: ______                                   No: ______
  Name: ________________________
  Telephone: _____________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Kevin J. Carson, Program Director, Safety and Technology Audits

Karl M. Allen, Audit Program Manager

Rebecca L. Andrade, Auditor

Nancy C. Cipolla, Report Process Manager
